INSPECTOR GENE




                              WA         GTQN, H)C 2057

I hereby submit this Semiannual Report: October 1,2005 - March 3 1,2006, which
summarizes the major activities and accomplishments of the Office of Inspector General
(OIG) of the National Labor Relations Board (NLRB or Agency). The submission of this
report is in accordance with the Inspector General Act of 1978, as amended (IG Act).
Section 5 of the IG Act requires that the Chairman transmit this report to the appropriate
committees or subcommittees of the Congress within 30 days of its receipt.

In the audit program, OIG issued two audit reports and one inspection report. In the
investigations program, OIG processed 81 contacts, initiated 9 cases, and closed 6 cases.
The investigations resulted in one suspension and $36,739 in investigative recoveries. We
reviewed four pieces of legislation. Details on these accomplishments can be found in the
body of this report.

The OIG is charged with preventing and detecting fi-aud and abuse as well as conducting
investigations. In the past year, we spent considerable resources on detecting and
conducting investigations of misuse of government computers, primarily to view sexually
graphic material. This period, we increased our efforts to prevent such abuse. The
Counsel to the Inspector General spoke to multiple groups of Agency managers and
employees on the OIG's forensic capabilities to investigate Internet misuse. We hope that
these efforts, plus management's support in addressing substantiated cases, will result in
less misuse of the Internet and a better working environment for all employees.

External quality control reviews were conducted of OIG audit operations for a 3-year
period and OIG investigative operations for a 1-year period. The reports stated that
systems of internal controls were in place and operating effectively, and the audits and
investigations were performed in accordance with standards.

I appreciate the support of all Agency employees in achieving the accomplishments set
forth in this report.



                                           / Jane E. Altenhofen       /
                                          ' April 28,2006
                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1         October 1, 2005 – March 31, 2006
                                                                      AGENCY PROFILE

On January 4, 2006, President Bush             The NLRB received an appropriation of
made two recess appointments.                  $252,268,000 for Fiscal Year (FY) 2006,
Ronald E. Meisburg is to serve as              less an across-the-board rescission of
General Counsel of the NLRB. Peter N.          1 percent, leaving a net spending ceiling
Kirsanow is to serve as a Board Member         of $249,745,320 to fund a ceiling of
for the remainder of a term that expires       1,840 full-time equivalents. NLRB
on August 27, 2008. On January 17,             Headquarters is at 1099 14th
2006, President Bush made the recess           Street, NW, Washington, DC.
appointment of Dennis P. Walsh to serve
as a NLRB Board Member for the                 In addition to the Headquarters building,
remainder of a term expiring                   employees are located in 51 field offices
December 16, 2009. Each recess                 throughout the country. Three satellite
appointee serves until the sine die            offices for the Administrative Law
adjournment of Congress unless the             Judges are located in Atlanta, San
Senate confirms his pending                    Francisco, and New York. Since
nominations.                                   October 2, 2000, field offices have
                                               included 32 Regional Offices, 16
Once again, the NLRB has a full                Resident Offices, and 3 Subregional
complement of five members that                Offices.
includes, in addition to the above,
Chairman Robert J. Battista and Board          Additional information about the NLRB
Members, Wilma B. Liebman and                  can be found on the Web site
Peter C. Schaumber.                            www.NLRB.gov.




NLRB OIG Semiannual Report                 2         October 1, 2005 – March 31, 2006
                                   OFFICE OF INSPECTOR GENERAL

NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources                                       (position currently vacant), three
The FY 2006 OIG budget is $1,130,100            auditors, and a staff assistant.
for operations, of which $170,974.38 is
for contract services. In addition to the       Deborah A. Micsky, an OIG
Inspector General, the OIG consists of a        investigator, accepted a position with the
Counsel/Assistant Inspector General for         Office of Personnel Management that
Investigations, Assistant Inspector             was effective on October 30, 2005.
General for Audits, an investigator




NLRB OIG Semiannual Report                  3          October 1, 2005 – March 31, 2006
                                                             AUDIT PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued two audit
reports and one inspection report.

Reports Issued                                   technology disaster, a plan is needed to
•   We issued Audit Report                       be able to accumulate, process, and
OIG-F-10-06-01, Audit of the NLRB                report information critical to the NLRB's
Fiscal Year 2005 Financial Statements,           mission and programs.
on December 16, 2005.
                                                 A management letter identified two
The audit, performed by Carmichael,              other areas in which management could
Brasher, Tuvell & Company (CBTC), an             improve controls or operating
independent public accounting firm,              effectiveness. These included ensuring
found that NLRB’s FY 2005 Financial              that Agency controls for accounting
Statements were fairly stated. No                system service center processing were
material weaknesses in controls over             properly implemented and that the
financial reporting were identified. In          Finance Branch be provided
addition, no instances of non-compliance         documentation to support all
with laws and regulations required to be         Intragovernmental Payment and
reported by Government Auditing                  Collection System transactions. The
Standards or the Office of Management            management letter also reported that
and Budget (OMB) were identified.                actions remain to be completed on five
                                                 prior year recommendations.
CBTC’s Report on Internal Control
identified one reportable condition. The         Management agreed with the Report's
Agency has not implemented a disaster            findings and recommendations.
recovery plan. In case of an information




NLRB OIG Semiannual Report                   4          October 1, 2005 – March 31, 2006
                                                                         AUDIT PROGRAM

•   We issued Audit Report                      Representation cases were generally
OIG-AMR-50-06-01, Regional Office               processed in a timely manner. Most
Casehandling Efficiency, on March 16,           cases that took longer to process were
2006. We conducted this audit to                the result of the case being blocked by a
evaluate the efficiency of Regional             related unfair labor practice case.
Office casehandling processes in unfair
labor practice and representation cases.        In two Regional Offices, the initial
This included evaluating timeliness.            contact with the parties was not
                                                documented in a significant number of
We did not identify inefficiencies in the       cases. We did not include a
processes used by the four Regional             recommendation related to this finding
Offices visited. Cases were processed in        because the issue was already addressed
compliance with Agency policy and the           by an internal report based on the
Regional Offices followed best practices        internal quality control review process.
identified in Agency guidance. Our
analysis of mean processing times did           Most of the 11 unfair labor practice and
not identify bottlenecks or a systemic          16 representation case data elements
problem.                                        tested were generally accurate. Some
                                                data elements had an error rate we
Unfair labor practice cases were                consider significant. We did not include
generally processed in a timely manner.         a recommendation related to this finding
Procedures varied some between the              because the criteria regarding proper
Regional Offices because they adapted           data input is clear and the Agency
Agency-wide guidance to their particular        recently implemented improvements to
operating environment.                          its data integrity program.




NLRB OIG Semiannual Report                  5         October 1, 2005 – March 31, 2006
                                                                         AUDIT PROGRAM

•   We issued Inspection Report                  •   The Federal Information Security
OIG-INS-40-06-01, Transit Subsidy, on            Management Act of 2002 requires
January 6, 2006. We initiated this               inspectors general to conduct annual
inspection to evaluate controls over the         reviews of information security
distribution of transit subsidies.               programs. The OIG review was
                                                 primarily accomplished as part of the
Controls appeared to be adequate for             audit of the FY 2005 financial
transit passes distributed by the                statements. A reportable condition on
Department of Transportation (DOT) to            information security was identified in
NLRB employees. The NLRB spent a                 that audit. On October 7, 2005, the
total of $880,786 in FY 2005 for transit         Chairman submitted reports from the
passes and services provided by DOT.             Inspector General and Chief Information
We did not find indications of                   Officer (CIO) to OMB.
significant abuse by employees. Agency
policies, nevertheless, need                     Audit Follow-up
improvement because they do not clearly          Agreed upon actions were not completed
address what current workers should do           within 1 year on four audit reports. Two
with transit passes that they received but       of these reports are now closed.
did not use within the allotted time.
                                                 •   Information Security Review of
Employees leaving the Agency did not             New Automated Systems, OIG-AMR-
always return the correct amount of              40-03-03, was issued on September 22,
unused transit passes. With projected            2003, and we reached agreement with
increases in retirements, strengthening          management on actions needed to
controls in this area may provide the            implement the eleven recommendations
Agency with additional funds that could          on that date. Action was completed on
be spent to accomplish its mission.              the final open recommendation in
                                                 January 2006.



NLRB OIG Semiannual Report                   6         October 1, 2005 – March 31, 2006
                                                                          AUDIT PROGRAM

•   Review of Data Accuracy in the              recommendations that management has
FY 2001 Annual Report, OIG-AMR-39-              subsequently concluded should not be
03-04, was issued on September 30,              implemented or completed in the report
2003. We reached agreement with                 to Congress by the Chairman and
management on actions needed to                 General Counsel.
implement the recommendation on
December 1, 2003. The agreed upon               •   Audit of Archiving Case Files,
actions included having the Agency              OIG-AMR-43-04-03, was issued on
conduct a study to determine whether            September 20, 2004, and we reached
the Agency will produce an annual               agreement with management on actions
report and, if so, in what form.                needed to implement the 10
                                                recommendations on that date. Actions
In January 2006, the Deputy Executive           have been completed on 7 of the 10
Secretary informed us that the political        recommendations.
leadership had made no decision
regarding how it will proceed with the          Management is working to implement
Annual Report but he, nevertheless,             the remaining recommendations. The
considered the recommendation closed.           original estimated completion date was
No changes were made to the FY 2004             July 2005. When reviewing a draft
or FY 2005 Annual Reports and no                policy in March 2006, we found that two
changes were planned for FY 2006. We            recommendations had not been
concluded that the Agency had decided           addressed. The latest estimate for
to continue producing the Annual Report         completion is May 16, 2006. We have
in its current form.                            contacted the Audit Follow-up Official
                                                to focus attention on efforts needed to
We found $57,000 that could be put to           complete these actions.
better use by eliminating or changing the
Annual Report. This amount must be
listed as the dollar value of

NLRB OIG Semiannual Report                  7         October 1, 2005 – March 31, 2006
                                                                       AUDIT PROGRAM

•   Audit of the NLRB Fiscal Year              One recommendation was to develop
2004 Financial Statements,                     debt collection regulations, a suggestion
OIG-F-9-05-01, was issued on                   that we originally made in a 2002
December 22, 2004, and we reached              inspection report. Draft regulations
agreement with management on that              were developed in 2004 and approved
date. Recommendations were made to             by the Rules Committee in 2005. On
the CIO and the Director of                    Tuesday, April 18, 2006, the Chairman
Administration.                                approved the regulations for publication.
                                               The Acting Solicitor is currently
The CIO originally agreed to implement         coordinating with new Board Members
four recommendations by December               for approval and will then coordinate
2005. Action on two recommendations            publication with the Executive
has not been completed. In fact, action        Secretary, the Agency's Federal Register
on one recommendation related to a             liaison. The estimated completion date
reportable condition repeated in the           is May 2006.
Audit of the FY 2005 Financial
Statements was just recently initiated.        The other recommendation is to
The estimated completion date has been         integrate the Regional Office budget
revised to September 2006.                     data into the Agency's accounting
                                               system. The estimated completion date
The Director of Administration agreed to       has been revised to September 2006.
implement four recommendations made
in the management letter. Action on two
recommendations has not been
completed.




NLRB OIG Semiannual Report                 8         October 1, 2005 – March 31, 2006
                                             INVESTIGATIONS PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 81 contacts, initiated 9 cases, and closed 6 cases. The investigations resulted
in one suspension and $36,739 in investigative recoveries. The Department of Justice
declined prosecution of one matter.


                        Case Workload                 Contacts Processed

                  Open (10/1/2005)       9       Received                  81

                  Initiated              9       Initiated Investigation    1

                  Closed                 6       Opened Case --             0
                                                 Referred to Agency
                  Open (3/31/2006)      12       Non-Investigative         80
                                                 Disposition


•   Internet Misuse. The OIG initiated            •    Travel Benefits. As
an investigation of contract personnel for        previously reported, OIG initiated this
misusing the Agency's Internet access.            case after an audit disclosed that the
During a routine review of the Agency's           Agency was providing tour-renewal
Internet firewall logs, we found that the         benefits to two employees that were
Agency was charged for time when                  transferred to offices outside the
certain contract employees were using             continental United States (CONUS).
the Agency's Internet access for activity         During our investigation, it came to our
unrelated to the contract.                        attention that the employees in question
                                                  are not on successive renewable tours,
The Agency and the contractor resolved            but rather were permanently reassigned
the allegation by entering into a                 to their respective duty stations.
settlement agreement that provided a
$35,605 refund to the Agency.                     We provided a memorandum to the
(OIG-I-381)                                       Agency expressing our belief that tour-




NLRB OIG Semiannual Report                   9              October 1, 2005 – March 31, 2006
                                                                INVESTIGATIONS PROGRAM

renewal travel was not intended or                to view sexually explicit material on the
authorized for employees permanently              Internet. Using commercially available
reassigned to a duty station outside of           forensic software, we substantiated the
CONUS and that the Comptroller                    allegation in two of the cases. One of
General has stated that tour-renewal              the two employees received a 3-day
agreement travel is ordinarily performed          suspension. Agency managers are
between tours.                                    considering disciplinary action for the
                                                  remaining case. (OIG-I-385, OIG-I-386,
During this reporting period, Agency              and OIG-I-387)
managers approved tour-renewal travel
for one of the employees to travel to             •   Outside Business Activity and
Boulder, CO. After the OIG notified the           Sexually Explicit Material. OIG
Agency that it intended to request a              initiated this case following a review of
Comptroller General opinion, the                  the Internet firewall records that showed
Agency sought and received                        the subject having an unusual pattern of
reimbursement for a portion of the travel         Internet use involving a Web site called
expenses, $1,134, that exceeded the cost          "marketwatch.com." This site appeared
of travel to the employee's last CONUS            to offer prizes for allowing it to track a
duty station – Newark, NJ. Because of             user's Internet activity.
the difference in opinion between the
OIG and the Agency, we requested a                A forensic review of the hard drive from
Comptroller General opinion. (OIG-I-              the subject's Government computer
370)                                              found that "marketwatch.com" activity
                                                  was the result of "spyware" that was
•   Sexually Explicit Internet                    downloaded without the subject's
Material. OIG initiated three cases               knowledge. Evidence collected during
following a referral of an allegation from        that process substantiated that the
Agency management that the subjects               subject sent and received sexually
were using their Government computer


NLRB OIG Semiannual Report                   10          October 1, 2005 – March 31, 2006
                                                               INVESTIGATIONS PROGRAM

explicit material through the Agency's e-        number or the office numbers and a log
mail system, that the subject engaged in         of mail, e-mail, and facsimile messages
outside business activity during official        are maintained. All information
duty hours, and that the subject                 received, regardless of the method used,
downloaded instant messaging software            is referred to as HOTLINE contacts.
and then used it to communicate
sexually graphic messages for a period           The information received over the
of several months. Agency managers               hotline is the basis for the initial review
are currently considering appropriate            for potential investigations. The
disciplinary action. (OIG-I-380)                 information is analyzed to determine if
                                                 further inquiry is warranted. Most
•   False Statement. The OIG                     HOTLINE contacts are calls from
referred one matter involving a false            members of the public seeking help on
statement to the Department of Justice.          an employment related problem or issues
Prosecution of the subject was declined.         outside OIG and/or Agency jurisdiction.
The matter involving the statement and           As appropriate, OIG refers these callers
the underlying allegation that initiated         to the Regional Office; local, state, or
the investigation are currently being            Federal agency; or private resource to
reviewed. (OIG-I-383)                            provide assistance.


Hotline                                          During this reporting period, OIG
Employees and members of the public              received 81 hotline contacts, of which 43
with information on fraud, waste, and            were telephone calls and 38 were in
abuse are encouraged to contact OIG. A           writing. One contact resulted in an OIG
log of calls to a nationwide toll free           investigative case.




NLRB OIG Semiannual Report                  11          October 1, 2005 – March 31, 2006
                  LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed four pieces of legislation.

Legislation                                      protection for assisting an Inspector
We reviewed the following legislation            General. The legislation contains
and provided input when appropriate.             provision intended to enhance the
                                                 independence of Inspectors General by
H.R. 4925, Paul Revere Freedom to                providing for 7-year terms of office,
Warn Act. This legislation is intended           removal for cause, and a prohibition on
to improve whistleblower protection by           reprogramming of funds appropriated to
providing for make whole remedies and            an OIG. The legislation would allow an
criminal penalties in cases of adverse           Inspector General to create a directorate
actions or discrimination against                to act upon whistleblower complaints
employees who provide information or             and allows for a whistleblower to
assist in investigations conducted by law        request the appointment of a special
enforcement offices including the OIG.           prosecutor.
The types of investigations covered by
the legislation include fraud, abuse of          H.R. 773, Fairness in Labor Litigation
authority, waste, and mismanagement of           Act. This legislation would amend the
public funds.                                    NLRA to make it an unfair labor
                                                 practice for an employer or a labor
S. 2285, Whistleblower                           organization to bring or cause to be
Empowerment, Security, and                       brought any civil or adversarial
Taxpayer Protection Act of 2006. This            adjudicatory action against a labor
legislation would amend two criminal             organization or an employer, if,
statutes that address witness tampering          irrespective of the outcome, such action
and retaliation by including witness             is determined by a competent fact finder




NLRB OIG Semiannual Report                  12         October 1, 2005 – March 31, 2006
                                                  LEGISLATION, REGULATIONS, AND POLICY

to be frivolous, vexatious, or objectively         appropriations, and taxpayer eligibility
baseless and not brought in good faith.            for fee awards.


S. 2017, Equal Access to Justice                   Regulations
Reform Act of 2005. This legislation               The Counsel to the Inspector General is
would eliminate the Equal Access to                an advisory member of the Agency's
Justice Act's substantial justification            Rules Revision Committee that develops
standard whereby the Government can                changes to the Agency's procedural
deny attorney's fees to prevailing parties         regulations. During this reporting
if the agency's position was substantially         period, the committee reviewed a
justified. The rate cap on expert witness          proposal to establish an alternative
and attorney's fees would also be                  dispute resolution program for cases
eliminated. The legislation also sets              pending before the Board.
forth provisions regarding settlement
offers, declarations of intent to seek a
fee award, payments from agency




NLRB OIG Semiannual Report                   13          October 1, 2005 – March 31, 2006
                                                        LIAISON ACTIVITIES

The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                       The Counsel participated in the Council
The Inspector General is a member of              of Counsels to Inspectors General
the Executive Council on Integrity and            (CCIG). The Counsel is also
Efficiency (ECIE), which consists                 participating as a member of a CCIG
primarily of the inspectors general at the        working group that is reviewing
designated Federal entities in the IG Act.        investigative manuals to determine if
She participated in activities sponsored          common areas exist in which a set of
by the President's Council on Integrity           "best practices" could be established.
and Efficiency (PCIE), which consists
primarily of the Presidentially-appointed         OIG Outreach
inspectors general. She joined the Audit          During this reporting period, the
Committee in May 2001.                            Counsel provided training sessions to
                                                  groups of employees and managers on
The Assistant Inspector General for               the OIG's methods of investigating
Audits, or designated auditors,                   Internet misuse cases. The training
participated in the Federal Audit                 provided information about the type of
Executives Council, Financial Statement           misconduct that can result in an OIG
Audit Network, and the PCIE                       investigation and a demonstration of the
Information Technology Roundtable.                OIG's forensic capabilities for reviewing
                                                  and recovering information from
                                                  computer hard drives. The training




NLRB OIG Semiannual Report                   14         October 1, 2005 – March 31, 2006
                                                                        LIAISON ACTIVITIES

sessions were designed to be a proactive           activities of the Comptroller General of
step in preventing misconduct involving            the United States, as head of the
the Internet.                                      Government Accountability Office, with
                                                   a view toward avoiding duplication and
Government Accountability Office                   ensuring effective coordination and
The IG Act states that each inspector              cooperation. No reviews of NLRB are
general shall give particular regard to the        currently ongoing.




NLRB OIG Semiannual Report                    15         October 1, 2005 – March 31, 2006
                                                                   PEER REVIEWS
Audit                                             Similarly, at the request of the Inspector
The IG Act provides that each Inspector           General of the Smithsonian Institution,
General shall comply with standards               we conducted an external quality review
established by the Comptroller General            of the OIG. Our report was issued on
of the United States. One of the                  May 13, 2005.
standards states that organizations
conducting government audits should               Investigations
have an external quality control review           The Attorney General Guidelines for
at least once every 3 years.                      Offices of Inspector General with
                                                  Statutory Law Enforcement Authority
The Inspector General arranged for the            require such offices to undergo a
Inspector General of the Farm Credit              periodic review by another OIG to
Administration (FCA) to conduct an                ascertain whether internal safeguards
external quality review of the OIG. The           and management procedures exist to
FCA Inspector General completed the               ensure that the office is properly
review in accordance with the bylaws              carrying out its investigative functions.
for peer review evaluations adopted by            For OIGs, such as this office, without
the inspectors general of the designated          statutory law enforcement authority, this
agencies of the ECIE. In his report,              quality assessment review of the
issued on March 1, 2006, the FCA                  investigative operations is voluntary.
Inspector General concluded that a
system of internal controls was in place          The Inspector General arranged for the
and operating effectively, and that audits        Inspector General of the Board of
performed by the OIG and by                       Governors of the Federal Reserve
contractors were being carried out in             System (FRB) to conduct the quality
accordance with Government Auditing               assessment review of the OIG
Standards.




NLRB OIG Semiannual Report                   16         October 1, 2005 – March 31, 2006
                                                                           PEER REVIEWS

investigative operations. The FRB                that internal safeguards and management
Inspector General completed the review           procedures for the investigation function
in accordance with the PCIE/ECIE                 of the OIG were in full compliance with
Quality Standards for Investigations and         the quality standards established by the
the Quality Assessment Review                    PCIE.
Guidelines established by the PCIE.
                                                 During this reporting period, the OIG
                                                 completed a quality assessment review
In his report, issued on January 9, 2006,
                                                 of the investigative operations of the
the FRB Inspector General concluded
                                                 OIG for the Federal Trade Commission.




NLRB OIG Semiannual Report                  17           October 1, 2005 – March 31, 2006
                           INFORMATION REQUIRED BY THE ACT

Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has not been completed on all significant recommendations
                that were described in the previous semiannual reports.

(4)             One case was referred to prosecutorial authorities. There were no
                prosecutions or convictions.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 19.

(8), (9)        No audit reports issued during this period had a recommendation on questioned
                costs. No audit reports issued during this period identified funds that could be
                put to better use. See Tables 1 and 2.

(10)            There are no audit reports issued before the commencement of the reporting
                period for which no management decision has been made by the end of the
                reporting period.

(11)            No significant revised management decisions were made during the reporting
                period. On page 7 of this report, we discuss a revised management decision with
                which we disagree.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      18           October 1, 2005 – March 31, 2006
                        AUDIT REPORTS BY SUBJECT MATTER

                                                                        Funds To
                                Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number          Costs          Costs        Costs      Better Use

ADMINISTRATION

Audit of the NLRB Fiscal Year
2005 Financial Statements
OIG-F-10-06-01                      0             0            0            0


FIELD INVESTIGATIONS

Regional Office Casehandling
Efficiency
OIG-AMR-50-06-01                    0             0            0            0




NLRB OIG Semiannual Report              19        October 1, 2005 – March 31, 2006
Table 1                         REPORTS WITH QUESTIONED COSTS

                                                           Dollar Value
                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0               0

B. Which were issued during the
   reporting period                       0            0               0

       Subtotals (A+B)                    0            0               0


C. For which a management
   decision was made during the
   reporting period                       0            0               0

(i)      Dollar value of disallowed
         costs                            0            0               0

(ii)     Dollar value of costs not
         disallowed                       0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0               0




NLRB OIG Semiannual Report                    20   October 1, 2005 – March 31, 2006
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Funds Be Put
                                      Reports     To Better Use
A. For which no management
   decision has been made by the
   commencement of the period            0             0

B. Which were issued during the
   reporting period                      0             0

       Subtotals (A+B)                   0             0


C. For which a management
   decision was made during the
   reporting period                      0             0

(i)      Dollar value of
         recommendations that were
         agreed to by management         0             0

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      0             0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0             0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0             0




NLRB OIG Semiannual Report                   21    October 1, 2005 – March 31, 2006
Every employee is the
guardian of integrity                                        .




                      OIG Hotline
                     1 800 736-2983
                  oighotline@nlrb.gov
                           or
                 1099 14th Street, NW
                 Washington, DC 20570


NLRB OIG Semiannual Report   22   October 1, 2005 – March 31, 2006
